No.
In the Supreme Court of the United States
DANNY VELOZ, Petitioner
v.
UNITES STATES OF AMERICA, Respondent.

PROOF OF SERVICE
I, Mark W. Shea, counsel for petitioner, do swear or declare that on this date,
August 7, 2020, as required by Supreme Court rule 29 I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR
A WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
Additionally, I electronically filed the foregoing documents on August 7, 2020
with the Supreme Court of the United States by using the Supreme Court’s
electronic filing system.
The names and address of those served are as follows:
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington DC 20530-0001

Mark T. Quinlivan, Esq.
U.S. Attorney’s Office
1 Courthouse Way
Suite 9200
Boston MA 02210

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 7, 2020
/s/ Mark W. Shea
Mark W. Shea, Counsel for Petitioner
Shea and LaRocque, LLP
929 Massachusetts Avenue, Suite 200
Cambridge MA 02139-3134
617.577.8722
markwshea@gmail.com

